APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(March 8, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(August 23, 2019) . . . . . . . . . . . . . App. 7
Appendix C Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois
(August 23, 2019) . . . . . . . . . . . . App. 29
Appendix D Notification of Docket Entry in the
United States District Court for the
Northern District of Illinois Eastern
Division
(May 23, 2020) . . . . . . . . . . . . . . App. 32
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Seventh Circuit
(April 6, 2021) . . . . . . . . . . . . . . . App. 34

App. 1

APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 20-1874
[Filed March 8, 2021]
________________________________________________
JASON GONZALES,
)
Plaintiff-Appellant,
)
)
v.
)
)
MICHAEL J. MADIGAN, et al.,
)
Defendants-Appellees. )
________________________________________________)
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 16 C 7915 — Matthew F. Kennelly, Judge.
____________________
ARGUED NOVEMBER 10, 2020 — D ECIDED MARCH 8,
2021
____________________
Before EASTERBROOK, KANNE, and SCUDDER, Circuit
Judges.

App. 2
EASTERBROOK, Circuit Judge. Michael Madigan was
elected to the Illinois House of Representatives at age
28 in November 1970 and re-elected to 25 additional
two-year terms. He became Speaker of the House in
1983, a position he retained with the exception of two
years when the Republican Party controlled the House.
He became Committeeman of the 13th Ward
Democratic Organization in 1969 and Chairman of the
state’s Democratic Party in 1998. In January 2021 he
withdrew from the race to be reelected as Speaker. The
next month he resigned his seat in the House and his
role as Chairman of the statewide party, though he
retains his post in the 13th Ward. His 36 years as
Speaker make him the longest-serving head of any
state or federal legislative body in the history of the
United States.
Madigan comfortably won both primary and general
elections for his entire political career. Most years he
ran unopposed in the Democratic primary; some years
he ran unopposed in the general election. When he
faced opposition, the races were not close. Which makes
it hard to understand the conduct he is accused of in
this suit.
Four candidates were on the ballot for the
Democratic primary in spring 2016: Michael Madigan,
Jason Gonzales, Grasiela Rodriguez, and Joe G.
Barboza. Madigan won with 65% of the votes cast;
Gonzales received 27%, Rodriguez 6%, and Barboza 2%.
Gonzales contends in this suit under 42 U.S.C. §1983
that Rodriguez and Barboza were stooges put on the
ballot by Madigan’s allies to divide the Hispanic vote
and ensure Madigan’s victory. The effort was hardly

App. 3
necessary, since if every non-Madigan vote had gone to
Gonzales he still would have lost in a landslide.
Nonetheless, Gonzales contends, the appearance of two
candidates who served only as distractors violated the
Equal Protection Clause in the Fourteenth Amendment
and entitles him to damages (perhaps represented by
the expenses of his failed run). Gonzales relies on
Smith v. Cherry, 489 F.2d 1098 (7th Cir. 1973), which
held that a stalking-horse candidacy, in which the
nominal contestant secretly planned to withdraw after
winning the primary and permit a party committee to
name the candidate for the general election, could in
principle violate the Equal Protection Clause.
In the district court and this court the parties have
debated quite a few issues, such as whether the margin
of Madigan’s victory in 2016 defeats the claim and
whether Gonzales has demonstrated that state action
is behind the appearance of Rodriguez and Barboza on
the ballot. (Section 1983 is limited to actions under
color of state law.) The district judge ultimately held a
single issue dispositive: whether, if Madigan was
behind Rodriguez and Barboza (he denies having any
role), that sponsorship was a secret. The district judge
thought that the key to the holding of Smith was the
voters’ ignorance of the stalking horse’s plan to
facilitate the appointment of someone who was not on
the ballot. Gonzales smelled a rat from the start and
made that known to the electorate, which swept
Madigan back into office anyway. An editorial in the
Chicago Sun-Times agreed with Gonzales about the
provenance of the Rodriguez and Barboza candidacies,
so the voters did not have to take his word for it. Our
Endorsements for the Illinois House, CHICAGO

App. 4
SUN-TIMES (Feb. 19, 2016). Because the voters were not
deceived, the judge held, the conditions leading to
liability in Smith have not been satisfied. The court
granted summary judgment against Gonzales. 403 F.
Supp. 3d 670 (N.D. Ill. 2019).
Gonzales’s response has been to file an appellate
brief that treats the district judge as an extra
defendant. According to Gonzales, the judge personally
violated the First Amendment by penalizing Gonzales’s
campaign speech. That utterly misunderstands the
burdens of production and persuasion in litigation. To
prevail, any litigant must establish the elements of a
valid claim. One aspect of that claim, under the
analysis of Smith, is that the voters have been
hoodwinked. Gonzales’s own speeches and ads during
his campaign show that the voters were not
hoodwinked. End of case. Recognizing this does not
penalize anyone’s speech. It shows, rather, that
Gonzalez did not satisfy the governing legal standard.
Imagine a contract case. Green promises to deliver
a ton of steel to Perkins, who files suit claiming that
Green did not perform. Green responds by producing a
written acknowledgment by Perkins that the steel was
received in good condition. Perkins loses—not because
his speech (the acknowledgment) has been penalized,
but because evidence shows that his claim of
nondelivery is false. Likewise if Perkins signs a release,
which Green tenders as an affirmative defense. See
Fed. R. Civ. P. 8(c)(1). Speech, including statements in
depositions and answers to interrogatories, often
affects the outcome of litigation, but a judge who takes

App. 5
account of speech that proves or refutes the plaintiff’s
claim does not violate the First Amendment.
Gonzales also accuses the district judge of violating
the Due Process Clause and the Equal Protection
Clause. Those assertions—advanced without
elaboration in one-half page of the appellate brief—do
not require independent analysis.
That’s all we need to say, but we cannot close
without remarking that we have applied Smith as
written without endorsing its reasoning or disposition.
The opinion in Smith does not explain why political
deceit violates the Equal Protection Clause. We mean
no disrespect to politicians in recognizing that many
false statements are made during political campaigns
and that many a stratagem that one side deems clever
will be seen by the opposition as a dirty trick. Opposing
political figures may brand true statements as false
and honest campaigning as a rotten subterfuge. Voters
rather than judges must decide when one side has gone
overboard. We explained why in Jones v. MarkiewiczQualkinbush, 892 F.3d 935, 939 (7th Cir. 2018):
Politics is a rough-and-tumble game, where hurt
feelings and thwarted ambitions are a necessary
part of robust debate. See Manley v. Law, 889
F.3d 885 (7th Cir. 2018). It is impossible to imagine the judiciary attempting to decide when a
politically retaliatory step goes “too far” without
displacing the people’s right to govern their own
affairs and making the judiciary just another
political tool for one faction to wield against its
rivals. The right response is political … . … Any
effort by the judiciary to stop one politician from

App. 6
proposing and advocating steps that injure another politician would do more to violate the
First Amendment (the right to advocate one’s
view of good policy is the core of free speech)
than to vindicate the Equal Protection Clause.
Gonzales told the voters that (in his view) Madigan had
played a dirty trick. The electorate nonetheless sided
with Madigan. The Constitution does not authorize the
judiciary to upset that outcome or to penalize a
politician for employing a shady strategy that voters
tolerate.
Smith was a bolt from the blue. It does not have any
predecessors that we could find. Nor has it had any
successors. Rudisill v. Flynn, 619 F.2d 692 (7th Cir.
1980), pretty much confines it to its facts. None of our
decisions since Rudisill has relied on Smith to hold
that any candidate’s mischief during a contested
election violates the Equal Protection Clause. As far as
we can tell, none of the other courts of appeals has ever
reached a decision similar to Smith; certainly none has
ever relied on Smith to vindicate one politician’s view
that an opponent overstepped the bounds of propriety.
See, e.g., Pignanelli v. Pueblo School District No. 60,
540 F.3d 1213, 1219 (10th Cir. 2008) (distinguishing
Smith because “voters had a real choice between real
candidates” in a school board election). We need not
decide today whether Smith should be overruled, but
we are confident that it should not be extended.
AFFIRMED

App. 7

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 16 C 7915
[Filed August 23, 2019]
__________________________________________
JASON GONZALES,
)
)
Plaintiff,
)
)
vs.
)
)
MICHAEL J. MADIGAN, FRIENDS OF )
MICHAEL J. MADIGAN, 13TH WARD
)
DEMOCRATIC ORGANIZATION, SHAW )
DECREMER, SILVANA TABARES,
)
RAY HANANIA, JOE BARBOSA, and
)
GRACIELA RODRIGUEZ,
)
)
Defendants.
)
__________________________________________)
MEMORANDUM OPINION AND ORDER
MATTHEW F. KENNELLY, District Judge:
Jason Gonzales unsuccessfully challenged Michael
J. Madigan, representative of Illinois’s 22nd district
and the Speaker of the Illinois House of

App. 8
Representatives, in the 2016 Democratic primary
election. Gonzales has sued Madigan and a number of
other individuals and organizations, alleging that they
conspired to place two “sham” candidates with Hispanic
surnames on the ballot in an effort to dilute Gonzales’s
electoral support. The defendants have moved for
summary judgment.
Background
The following facts are undisputed except where
otherwise noted. Since 1971, Michael J. Madigan has
represented Illinois’s 22nd district on Chicago’s
southwest side. He is the chairman of the Illinois
Democratic Party and the Speaker of the Illinois House
of Representatives. Madigan has served as the House
speaker for thirty-three of the past thirty-five years.
The legislative district Madigan represents
geographically overlaps with parts of Chicago’s 13th
Aldermanic Ward, which is represented by Madigan’s
political ally Marty Quinn. Alderman Quinn served as
Madigan’s campaign manager in 2016. In addition,
Madigan serves as a 13th Ward committeeman—and,
as such, manages political- and election-related
activities in the ward—and as the chairman of the 13th
Ward Democratic Organization, a private political
organization.
A. 2016 Democratic primary election
Gonzales challenged Madigan in the 2016
Democratic primary. In addition to Gonzales and
Madigan, two other candidates’ names appeared on the
primary ballot: Joe Barboza and Graciela Rodriguez.
Gonzales contends that Madigan, acting through

App. 9
associated individuals and entities, caused Barboza
and Rodriguez to enter the race as “sham” candidates
whose purpose was to dilute Gonzales’s support among
Hispanic voters. Madigan denies any involvement in
efforts to recruit Barboza or Rodriguez to run in the
primary.
In support of his contention that Barboza and
Rodriguez were sham candidates, Gonzales points to
evidence that individuals associated with Madigan
encouraged them to run—even though Madigan was in
the race. For example, Kevin Quinn, the brother of
Alderman Marty Quinn, testified that Alderman Quinn
authorized him to instruct a third Democratic official
to contact Barboza about entering the race. Similarly,
Rodriguez testified that she discussed the possibility of
running with Jennifer Solski, Alderman Quinn’s
assistant. Gonzales also contends that Barboza and
Rodriguez never actively campaigned. For example,
Barboza and Rodriguez spent little or no money on the
election and held no rallies.
Gonzales also cites Barboza’s and Rodriguez’s
nominating petitions as evidence that their candidacies
were a sham. Under Illinois law, prospective
candidates hoping to appear on the primary ballot
must obtain signatures on nominating petitions.
Volunteers or employees of the 13th Ward Democratic
Organization—including so-called “precinct
captains”—circulated Madigan’s petitions. They also
circulated petitions for Rodriguez and Barboza—to run
against Madigan, the chairman of the Organization.
Although Rodriguez and Barboza both testified that
they did not know many of the people who circulated

App. 10
petitions on their behalf, it is undisputed some of their
circulators, including Michael Kuba, Joseph Nasella,
and Eugene Pagois, were also involved with the 13th
Ward Democratic Organization. And it is undisputed
that former Madigan staffer Shaw Decremer delivered
Barboza and Rodriguez’s nominating petitions from
Chicago to Springfield, Illinois, where they were filed
with the Illinois State Board of Elections.
During the campaign, Gonzales told multiple news
outlets (including the Chicago Sun-Times, WTTW,
NBC Chicago, and the Wall Street Journal) that he
believed Barboza and Rodriguez were sham candidates
who were on the ballot at Madigan’s behest. Madigan,
for his part, testified that he believed that the
then-governor of Illinois, Republican Bruce Rauner,
was financially supporting Gonzales’s campaign.
The primary election was held on March 15, 2016.
Out of a total of 26,320 votes, Madigan earned 17,155,
or about 65.2%. Gonzales received 7,124 votes (about
27%), Rodriguez 1,523 (5.8%), and Barboza 518 (2%).
B. Procedural history
In August 2016, Gonzales filed the present lawsuit
against a number of individuals and organizations,
including Madigan, Barboza, and Rodriguez, alleging
that they violated his constitutional rights under the
First, Fourteenth, and Fifteenth Amendments to the
U.S. Constitution, as well as various provisions of
Illinois law. The defendants successfully moved to
dismiss the federal claims, but the Court granted
Gonzales leave to amend the complaint with respect to
all but one of the defendants. See Gonzales v. Madigan

App. 11
(First Motion to Dismiss Ruling), No. 16 C 7915, 2017
WL 977007, at *5 (N.D. Ill. Mar. 14, 2017).
Gonzales amended his complaint. The Court
initially dismissed the amended complaint with
prejudice, reasoning that “Gonzales cannot make
allegations plausibly supporting a contention that one
or more of the defendants acted under color of state
law.” Gonzales v. Madigan (Second Motion to Dismiss
Ruling), No. 16 C 7915, 2017 WL 2653079, at *7 (N.D.
Ill. June 20, 2017). On Gonzales’s motion, however, the
Court vacated that judgment because it determined
that it had applied the “color of state law” requirement
too narrowly. The Court then dismissed some but not
all of Gonzales’s federal claims on different grounds
and again granted leave to amend the complaint. See
Gonzales v. Madigan (Ruling Vacating Judgment), No.
16 C 7915, 2017 WL 3978703, at *5, *11 (N.D. Ill. Sept.
11, 2017).
Gonzales filed a second amended complaint. The
defendants moved to dismiss Gonzales’s state law
claims. The Court granted the motion with respect to
Gonzales’s common-law tort claims in which he alleged
defamation and false light but denied it with respect to
his state statutory claims. See Gonzales v. Madigan
(Third Motion to Dismiss Ruling), No. 16 C 7915, 2018
WL 1377910, at *3 (N.D. Ill. Mar. 17, 2018). As a result
of that ruling, the remaining defendants are Madigan,
Friends of Michael J. Madigan (a Madigan-controlled
political action committee), the 13th Ward Democratic

App. 12
Organization, Decremer, Barboza, and Rodriguez.1 In
his remaining claims, Gonzales alleges that each of the
defendants violated the Equal Protection Clause and
42 U.S.C. § 1983 (counts 3, 9, 15, 23, 27, 33, and 35);
engaged in a conspiracy under section 1983 (count 37);
conspired to prevent voting under 10 Ill. Comp. Stat.
5/29–18 (count 38); violated Illinois’s statutory
analogue to section 1983, 10 Ill. Comp. Stat. 5/29–17,
by infringing Gonzales’s rights under the federal
constitution (count 39); and engaged in a conspiracy to
interfere with civil rights in violation of 42 U.S.C.
§ 1985(3) (count 40). The defendants have moved for
summary judgment.
Discussion
Summary judgment is appropriate if “there is no
genuine dispute as to any material fact and the moving
party is entitled to judgment as a matter of law.” Giles
v. Godinez, 914 F.3d 1040, 1048 (7th Cir. 2019). The
Court does not “assess the credibility of witnesses” or
“balance the relative weight of conflict evidence,” but
instead views “all the evidence in the record in the light
reasonably most favorable to the nonmoving part[y].”
Palmer v. Franz, 928 F.3d 560, 565 (7th Cir. 2019). To
withstand summary judgment, Gonzales must “present
specific facts establishing a material issue for trial, and

1

Silvana Tabares, a former Illinois state representative and
current alderman of Chicago’s 23rd Ward, and Ray Hanania, a
political journalist, also remain as defendants in this case. It
appears from the complaint and the parties’ briefs, however, that
none of the claims relating to Tabares and Hanania concern their
alleged statements about Gonzales’s criminal record that remain
in the case.

App. 13
any inferences must rely on more than mere
speculation or conjecture.” Giles, 914 F.3d at 1048.
The defendants contend that they are entitled to
summary judgment because the federal constitution
provides only limited recourse for misconduct during
elections. As the Seventh Circuit explained in Jones v.
Markiewicz-Qualkinbush, 892 F.3d 935 (7th Cir. 2018),
“[i]t is impossible to imagine the judiciary attempting
to decide when a politically retaliatory step goes ‘too
far’ without displacing the people’s right to govern their
own affairs and making the judiciary just another
political tool for one faction to wield against its rivals.”
Id. at 939. The court further observed that “[a]ny effort
by the judiciary to stop one politician from proposing
and advocating steps that injure another politician
would do more to violate the First Amendment (the
right to advocate one’s view of good policy is the core of
free speech) than to vindicate the Equal Protection
Clause.” Id. The Seventh Circuit has repeatedly
expressed similar wariness about involving federal
courts in state election disputes. See Manley v. Law,
889 F.3d 885, 889 (7th Cir. 2018) (“The Constitution
does not guarantee good feelings or regulate manners
in political disputes.”); Parra v. Neal, 614 F.3d 635, 637
(7th Cir. 2010) (“When a plaintiff invokes § 1983 in
federal court to challenge the conduct of a state or local
election, the district court must balance the protection
of the right to vote enshrined in the First and
Fourteenth Amendments with the avoidance of
excessive entanglement of federal courts in state and
local matters.”); Dieckhoff v. Severson, 915 F.2d 1145,
1148 (7th Cir. 1990) (noting the need to avoid
“excessive entanglement of federal courts in state and

App. 14
local election matters”); Bodine v. Elkhart Cty. Election
Bd., 788 F.2d 1270, 1272 (7th Cir. 1986) (“[F]ederalism
concerns caution against excessive entanglement of
federal courts in state election matters.”).
Gonzales argues that his claims should nonetheless
withstand summary judgment under the Seventh
Circuit’s decision in Smith v. Cherry, 489 F.2d 1098
(7th Cir. 1973), in which the court held that the
plaintiff could pursue his claim that the use of sham
candidates in a state election violated the Equal
Protection Clause. Alternatively, Gonzales contends
that a reasonable jury could find that the defendants
discriminated against him as an individual—that is, as
a “class of one”—for reasons unrelated to a legitimate
government interest under Esmail v. Macrane, 53 F.3d
176 (7th Cir. 1995).
A. Smith v. Cherry
Gonzales first argues that a reasonable jury could
find that the defendants’ alleged election fraud violated
his constitutional rights under Smith v. Cherry. In that
case, the main plaintiff, Ronald Smith, had
unsuccessfully challenged the defendant, Robert
Cherry, in the Democratic primary election for the
office of state senator. Smith, 489 F.2d at 1099–100.
Smith alleged that Cherry had conspired with the
district’s senatorial committee to run as a stand-in
candidate who, when he won, would withdraw his
candidacy to allow the committee to appoint a different
person as the Democratic nominee. Id. at 1100. The
Seventh Circuit held that the plaintiffs’ allegations
were sufficient to state a claim under the Equal
Protection Clause. Id. at 1103. The parties agree that

App. 15
Smith represents an exception to the general principle
that a candidate’s misconduct in state and local
elections does not give rise to a justiciable claim under
the Equal Protection Clause. They dispute, however,
whether Smith allows Gonzales to withstand summary
judgment given the evidence of record in this case.
The defendants contend that Smith imposes four
requirements for Gonzales’s claim under the Equal
Protection Clause: (1) the ballot must include a “sham”
candidate, defined to mean a candidate who has
promised to step down in favor of another person if
elected; (2) the fraud must be undisclosed; (3) there
must be a reasonable possibility that the sham
candidacy affected the outcome of the election; and
(4) the alleged misconduct must constitute state action.
See Defs.’ Brief in Supp. Mot. for Summ. J., dkt. no.
278, at 10–11. Gonzales, by contrast, argues that a
claim under Smith requires him to show only that the
defendant denied him “an equal opportunity to win
votes” and that voters “suffered an unequal burden on
their right to cast their votes effectively.” Smith, 489
F.2d at 1102.
1. Effect on electoral outcomes
The defendants argue that they are entitled to
summary judgment on Gonzales’s claim under Smith
because no reasonable jury could find that it was
possible that the alleged sham candidates affected the
outcome. They point to Madigan’s wide margin of
victory—he won more than 65% of the total votes—as
well as expert testimony regarding voters’ stated
preferences as evidence that the alleged fraud was
ultimately immaterial.

App. 16
The defendants’ argument depends on a misreading
of Smith. In relevant part, the Seventh Circuit stated
that if the plaintiffs “show a reasonable possibility that
Cherry’s sham candidacy affected the outcome of the
election, then the district court should order new
primary and general elections.” Smith, 489 F.2d at
1103. This reference to the effect on the election’s
outcome implicates what relief would be appropriate if
the plaintiff were to prevail, but nothing in Smith or
subsequent cases suggests that a plaintiff must prove
the likely effect of the fraud to demonstrate a
constitutional violation. To the contrary, the Seventh
Circuit has explained that
an election is more than just a sum total of
votes. It is also about the act of voting—an
individual’s ability to express his or her political
preferences at the ballot box. An official who
willfully interferes with this act violates the
Constitution, regardless whether the vote would
have affected the election outcome.
Kozuszek v. Brewer, 546 F.3d 485, 490 (7th Cir. 2008).
Applying Kozuszek, a reasonable jury could find that
the defendants’ alleged misconduct affected the act of
voting by altering the makeup of the primary ballot
even if it did not influence who became the Democratic
Party nominee.2 The defendants’ argument therefore

2

It is undisputed that Gonzales voted in the 2016 Democratic
primary election. He thus would have standing to challenge the
election misconduct as a voter who “suffered an unequal burden on
[his] right to cast [his] vote[] effectively.” Smith, 489 F.2d at 1102
(internal quotation marks omitted).

App. 17
does not provide a basis for granting summary
judgment.
2. Nature of the sham candidacies
The defendants next contend that no reasonable
jury could find that Barboza and Rodriguez were
“sham” candidates within the meaning of Smith.
Specifically, they point out that the alleged fraud in
Smith involved a conspiracy between the candidate and
the Democratic Party political organization for the
candidate to withdraw his name after winning so that
the organization could appoint its preferred nominee.
The defendants contend that summary judgment is
appropriate because there is no evidence that Barboza
or Rodriguez made a similar agreement to step aside;
indeed, Gonzales appears to concede in his response to
the motion for summary judgment that Barboza and
Rodriguez would have stayed in the race through the
general election if either candidate had won the
Democratic nomination. Pl.’s. Resp. to L.R. 56.1 Stmt.,
dkt. no. 291, ¶ 71; Pl.’s Resp. Br., dkt. no. 292, at 8
(arguing that an agreement to bow out of the election
“would have been superfluous”).
As an initial matter, the Court concludes that a jury
viewing the evidence in the light most favorable to
Gonzales could reasonably find that the defendants
solicited Barboza and Rodriguez to run and helped
circulate their nominating petitions in an effort to
confuse or otherwise dilute Gonzales’s support among
Hispanic voters and perhaps others. Kevin Quinn
testified that his brother, Madigan’s campaign
manager Alderman Marty Quinn, authorized him to
solicit Barboza’s candidacy. And Graciela Rodriguez

App. 18
testified that she spoke about the possibility of running
with Jennifer Solski, Alderman Quinn’s assistant.
Based on this testimony, a jury could reasonably
conclude that individuals closely tied to Madigan’s
campaign manager convinced Barboza and Rodriguez
to enter the race—against Madigan. Madigan testified
that he and Alderman Quinn worked together closely
in daily conversations on problems and issues in the
campaign. This evidence supports a reasonable
inference that Madigan authorized or at least was
aware of the recruitment effort. And the evidence
concerning the circulation of Barboza and Rodriguez’s
nominating petitions, particularly the involvement of
13th Ward Democratic Organization precinct captains,
provides additional support for Gonzales’s allegations.
To put it succinctly, a reasonable jury could find that
Barboza and Rodriguez’s purported candidacies for
Madigan’s office were orchestrated by Madigan’s
associates, working on Madigan’s behalf. Thus the
question is not whether Barboza and Rodriguez
appeared on the ballot as a result of the defendants’
efforts—a reasonable jury could so conclude, which is
the limit of Court’s inquiry at this stage—but rather
whether the evidence is legally sufficient to allow
Gonzales to prevail under Smith.
Turning to the governing law, it is not clear from
the Seventh Circuit’s reasoning in Smith that Gonzales
must prove that Barboza and Rodriguez intended to
step down. The defendants point to the court’s
observation that “votes intended for Cherry were really
votes for Palmer.” Smith, 489 F.2d at 1102. But the
court also stated that the alleged conspiracy violated
Smith’s and the voters’ constitutional rights because it

App. 19
constituted a “deception on the face of the ballot.” Id.
Gonzales argues that a reasonable jury could find that
the defendants propagated such a deception by adding
to the ballot candidates with Hispanic surnames whose
sole purpose in running was to detract from Gonzales’s
electoral support. The defendants respond that this
alleged deception is insufficient unless, as in Smith,
those candidates were truly stand-ins—i.e., individuals
who ran in the primary with no intention of staying in
the race through the general election in the event they
became the party’s nominee.
The defendants’ argument finds some support in
Rudisill v. Flynn, 619 F.2d 692 (7th Cir. 1980), in
which the Seventh Circuit appears to have limited the
scope of Smith. In Rudisill, the court considered
whether Smith permitted a suit alleging that the
defendants first persuaded a local government to place
a public referendum on the ballot, the passage of which
would financially benefit the defendants, then lied to
the voting public about the merits of the ballot
measure. The court distinguished Smith by observing
that “a vote for the sham candidate whose name
appeared on the ballot was really a vote for another
undisclosed person,” which provided the necessary
“nexus between the defendants’ alleged
misrepresentations and the ballot.” Id. at 694. At least
one other district court (outside this circuit) has
characterized an agreement to withdraw as an
essential element of a sham candidacy under Smith.
See Block v. Marino, 918 F. Supp. 349, 353 (S.D.N.Y.
1993).

App. 20
It is not clear, however, that the opinion in Rudisill
limits claims under Smith to cases in which sham
candidates agreed to drop out after prevailing in the
primary. The court in Rudisill identified the “crucial
factors” in Smith, which were “that (1) the fraud was
intimately connected with the ballot, (2) had the
purpose and effect of deceiving voters as to the actual
effect of their votes, and (3) had the intended result of
favoring one relatively distinct group of voters over
others.” Rudisill, 619 F.2d at 694. Although the court
emphasized that in Smith the sham candidates’
agreement to withdraw constituted a fraud intimately
connected with the ballot, it did not hold that such an
agreement was the only actionable election fraud.
Perhaps more importantly, this case is distinct from
both Rudisill and Smith in that the intent behind the
alleged fraud was for the sham candidates not to win
but to lose. In contrast to Cherry (the defendant in
Smith), Barboza and Rodriguez’s alleged role was
simply to appear on the ballot and siphon votes away
from Gonzales rather than to prevail as a stand-in for
the real candidate. Under these circumstances,
requiring Gonzales to prove that Barboza and
Rodriguez had agreed to drop out of the race would be
altogether extraneous to the design of the alleged
scheme, whose success in no way depended on their
victory.
Finally, requiring evidence that the sham
candidates intended to withdraw would have the effect
of limiting Smith to its particular facts. Beyond the
previously-cited remarks in Rudisill, which admit of
multiple interpretations, the Seventh Circuit has not
held that Smith is so confined. For that reason, the

App. 21
Court is reticent to adopt the defendants’ suggestion
that a plaintiff may not prevail under Smith unless the
sham candidates expressly agreed in advance to step
down. The defendants are therefore not entitled to
summary judgment on this basis.
3. Publicity of the alleged fraud
The defendants next argue that they are entitled to
summary judgment on Gonzales’s claim under Smith
because the alleged fraud was publicized during the
campaign. They point to Gonzales’s statements,
reflected in numerous articles published in local and
national news outlets, in which he alleged that
Madigan or his associates put Barboza and Rodriguez
on the ballot to target Gonzales’s base of support. See,
e.g., Paris Schutz, Michael Madigan Faces Primary
Challenger Jason Gonzales, WTTW, Dec. 22, 2015,
Defs.’ Ex. 14, dkt. no. 280–14 (“Gonzales says [Barboza
and Rodriguez] were planted by Speaker Madigan’s
operation to dilute the Hispanic vote, which makes up
the overwhelming majority of the district.”).
The defendants again rely on Rudisill, in which the
Seventh Circuit interpreted Smith to require that the
alleged fraud “had the purpose and effect of deceiving
voters as to the actual effect of their votes.” Rudisill,
619 F.2d at 694. In affirming the district court’s
dismissal, the court explained, “The merits of a ballot
issue are matters reserved for public and private
discussion and debate between opponents and
proponents. It is for the voters, not this court to decide
whom to elect and what ballot issues to approve.” Id.
The defendants contend that, under Rudisill, “as long
as the truth is publicly known, the objector’s remedy is

App. 22
to use that truth to persuade voters at the ballot box.”
Defs.’ Brief in Supp. Mot. for Summ. J., dkt. no. 278, at
14.
Gonzales argues that Rudisill is distinguishable
because that case concerned alleged misrepresentations
about the provenance and purpose of a particular ballot
measure, not the existence of a sham candidate. But
the Seventh Circuit suggested more recently in Jones
that the principle of Rudisill should apply more broadly
than Gonzales contends. When a candidate for state
office deploys dirty tricks in an election, the court in
Jones held, “[t]he right response is political”—that is,
“[t]he price of political dirty tricks must be collected at
the ballot box, rather than the courthouse.” Jones, 892
F.3d at 939–40. The court reasoned that it “is
impossible to imagine the judiciary attempting to
decide when a politically retaliatory step goes ‘too far’
without displacing the people’s right to govern their
own affairs and making the judiciary just another
political tool for one faction to wield against its rivals.”
Id. at 939. Although the plaintiff in Jones proposed a
theory of liability under the Equal Protection Clause
different from the one on which Gonzales primarily
relies, the Seventh Circuit’s admonitions about the
risks of judicial intervention into electoral misconduct
would appear to apply with equal force in the context
of a claim under Smith.
To the extent that the court in Smith recognized a
category of claims challenging electoral misconduct
under the Equal Protection Clause, therefore, it stands
in some tension with the suggestion in Jones that
judicial regulation of that misconduct is generally

App. 23
improper. But these holdings can be reconciled by
distinguishing cases where the fraud remains hidden
during the campaign from those in which the fraud is
publicized and widely communicated. The mechanism
by which the Seventh Circuit in Jones explained that
voters can hold candidates to account for election
misconduct plainly does not apply to a case like Smith,
where the alleged conspiracy to have the sham
candidate withdraw was hidden from the public until
after the votes were cast. The extent of the publicity of
the misconduct can delineate cases of non-actionable
election misconduct from the types of fraud for which
Smith provides a judicial remedy.
Applying these principles, the Court concludes that
the undisputed fact that, before election day, Gonzales
publicized and campaigned on the allegation that
Barboza and Rodriguez were sham candidates
precludes his claim under Smith. In this case, there is
unrebutted evidence Gonzales made Madigan’s
deceptive tactics a central issue in his campaign. See,
e.g., Andy Grimm, Madigan Challenger Gonzales Faces
Uphill Climb to Unseat Speaker, Chi. Sun-Times, Feb.
29, 2016, Defs.’ Ex. 16, dkt. no. 280–16, at 1 (“Gonzales
said having a pair of Latino-named, no-show
candidates on the ballot was the first in a string of
dirty tricks he has faced since starting his campaign
against Madigan.”); Mark Peters, Election 2016: In
Chicago, Candidates Battle Ghosts in the Machine,
Wall Street J., Mar. 14, 2016, Defs.’ Ex. 18, dkt. no.
28018, at 1 (quoting Gonzales as describing Madigan’s
alleged misconduct as “the oldest trick in the book”).
And these reports did not come only from Gonzales. In
declining to endorse either Gonzales or Madigan, the

App. 24
editorial board of the Chicago Sun-Times stated that
“two other names on the ballot—Joe G. Barboza and
Grasiela Rodriguez—are widely seen as inactive
Madigan plants to divide the opposition.” Our
Endorsements for the Illinois House, Chi. Sun-Times,
Feb. 19, 2016, Defs.’ Ex. 15, dkt. no. 280–15, at 3. This
publicity placed the alleged misconduct squarely within
the political realm, enabling voters to rebuke Madigan
by electing his challenger. Cf. Rudisill, 619 F.2d at 694
n.1 (noting that, “had the circumstances warranted,
voters would not have hesitated to draw an adverse
inference” against the perpetrators of the alleged
misconduct). Instead, Madigan prevailed by a
substantial margin. Under Jones, the Court may not
appropriately second-guess the voters’ choice “without
displacing the people’s right to govern their own affairs
and making the judiciary just another political tool for
one faction to wield against its rivals.” Jones, 892 F.3d
at 939.
In reaching this conclusion, the Court does not hold
that there is no constitutional limit on election-related
misconduct whenever that misconduct is publicly
known before the votes are cast. In particular, the
Court is cognizant that there is evidence from which a
reasonable jury could find that the defendants engaged
in a deliberate effort to interfere with voters’ decision
making. Such fraudulent interference in the form of
sham candidates might, in an appropriate case,
undermine the ability of the electorate to hold the
offending candidate to account. But Gonzales has not
pointed to evidence—or even alleged—that the
defendants’ fraud prevented the voters from punishing
Madigan at the ballot box. Because Gonzales bears the

App. 25
burden of pointing to specific facts establishing a
material issue for trial, Giles, 914 F.3d at 1048,
summary judgment is appropriate under Jones.
B. Class-of-one claim
Gonzales argues that even if his claim cannot
survive under Smith, a reasonable jury could
nonetheless find that the defendants violated his
constitutional rights by discriminating against him as
a “class of one.” The Seventh Circuit has explained that
a class-of-one claim is “best understood to provide a
kind of last-ditch protection against governmental
action wholly impossible to relate to legitimate
governmental objectives.” Esmail v. Macrane, 53 F.3d
176, 180 (7th Cir. 1995). Whether Gonzales’s claim can
withstand summary judgment depends on whether he
has introduced evidence from which a reasonable jury
could find that the kind of governmental action being
challenged lacked a rational basis. See Village of
Willowbrook v. Olech, 528 U.S. 562, 564 (2000); Jones,
892 F.3d at 939 (“[G]overnmental action in class-of-one
situations requires a rational basis.”).
The Court need not decide this question, however,
because Gonzales’s class-of one theory is forfeited.
Gonzales raised this argument for the first time in his
opposition to summary judgment. Although he is not
necessarily precluded from raising new legal theories
in a summary judgment brief, see Chessie Logistics Co.
v. Krinos Holdings, Inc., 867 F.3d 852, 859 (7th Cir.
2017), Gonzales’s argument is too cursory to constitute
a basis for denying the motion for summary judgment.
It is limited to a single paragraph in which he does not
attempt to explain what evidence would permit a

App. 26
reasonable jury to find that the defendants lacked a
legitimate governmental objective. The only case he
cites is Esmail, which concerned an entirely different
context in which a government official engaged in a
course of harassment out of sheer malice. See Esmail,
53 F.3d at 179 (“If the power of government is brought
to bear on a harmless individual merely because a
powerful state or local official harbors a malignant
animosity toward him, the individual ought to have a
remedy in federal court.”). Esmail is entirely unhelpful
to Gonzales’s case, as he has not argued or pointed to
evidence that the defendants’ conduct was motivated by
malice or personal animosity. Gonzales has thus
forfeited this “perfunctory and underdeveloped”
argument. Batson v. Live Nation Entm’t, Inc., 746 F.3d
827, 833 (7th Cir. 2014); see also United States v.
Giovannetti, 919 F.2d 1223, 1230 (7th Cir. 1990) (“A
litigant who fails to press a point by supporting it with
pertinent authority, or by showing why it is a good
point despite a lack of supporting authority or in the
face of contrary authority, forfeits the point.”); cf.
Jarrard v. CDI Telecomm., Inc., 408 F.3d 905, 916 (7th
Cir. 2005) (holding that underdeveloped arguments
were forfeited on appeal because the litigant’s briefs
lacked “citation to relevant authority or meaningful
argument”).
C. Defendants’ remaining arguments
The defendants also argue that they are entitled to
summary judgment because a reasonable jury could not
find that the defendants acted under the color of state
law or that they were motivated by racial animus
within the meaning of 42 U.S.C. § 1985(3). The Court

App. 27
need not resolve these issues, however, because
summary judgment is appropriate for the reasons
previously discussed. The Court’s conclusion that
Gonzales cannot show that a reasonable jury could find
that he suffered an actionable violation of the Equal
Protection Clause disposes of all his remaining claims.
See Daugherty v. Page, 906 F.3d 606, 612 (7th Cir.
2018) (noting that a plaintiff alleging a conspiracy to
violate section 1983 “must show an underlying
constitutional violation and demonstrate that the
defendants agreed to inflict the constitutional harm”
(internal quotation marks omitted)); Dempsey v.
Johnson, 2016 IL App (1st) 153377, ¶ 48, 69 N.E.3d
236, 252 (holding that a claim under 10 Ill. Comp. Stat.
5/29–17 for violation of a federal constitutional right
has the same elements as a claim under section 1983);
Kowalski v. Boliker, 893 F.3d 987, 1001 (7th Cir. 2018)
(noting that a claim under section 1985(3) requires
proof of a conspiracy to deprive the plaintiff “of the
equal protection of the laws”); Third Motion to Dismiss
Ruling, 2018 WL 1377910, at *3 (noting that both
parties have conceded that the claim under 10 Ill.
Comp. Stat. 5/29–17 is analogous to the claim under
section 1983). Gonzales has not argued that his claim
under 10 Ill. Comp. Stat. 5/29-18, which prohibits
conspiracies to interfere with voting, can survive
independently from his federal constitutional claims,
and the defendants are thus entitled to summary
judgment on count 38 as well. See Burton v. Kohn Law
Firm, S.C., No. 18–2059, 2019 WL 3757571, at *3 (7th
Cir. Aug. 9, 2019) (“[T]o survive summary judgment
the nonmoving party must present evidence sufficient
to establish a triable issue of fact on all essential
elements of [his] case.”).

App. 28
In addition, because the Court concludes that the
defendants are entitled to summary judgment on all
the remaining claims, the plaintiff’s outstanding
motions to strike the defendants’ affirmative defenses
are moot. See dkt. nos. 180, 181; see also Juniel v. Park
Forest-Chicago Heights Sch. Dist. 163, 161 F. Supp. 2d
910, 911 n.1 (N.D. Ill. 2001) (denying as moot motions
to strike in light of the grant of summary judgment).
Conclusion
For the foregoing reasons, the Court grants the
defendants’ motion for summary judgment [dkt. no.
277]. The Court denies as moot the plaintiff’s motions
to strike the defendants’ affirmative defenses [dkt. nos.
180, 181]. The Clerk is directed to enter judgment in
favor of defendants and against plaintiff.
s/
MATTHEW F. KENNELLY
United States District Judge
Date: August 23, 2019

App. 29

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Case No. 16 C 7915
[Filed August 23, 2019]
__________________________________________
JASON GONZALES,
)
)
Plaintiff(s),
)
)
v.
)
)
MICHAEL J. MADIGAN, FRIENDS OF
)
MICHAEL J. MADIGAN, 13TH WARD
)
DEMOCRATIC ORGANIZATION, SHAW
)
DECREMER, SILVANA TABARES,
)
RAY HANANIA, JOE BARBOSA, and
)
GRACIELA RODRIGUEZ,
)
)
Defendant(s).
)
__________________________________________)
Judge Matthew F. Kennelly
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):

App. 30
9 in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which

9 includes

pre–judgment
interest.

9 does not include pre–judgment
interest.
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).
9 in favor of defendant(s)
and against plaintiff(s)
Defendant(s) shall recover costs from plaintiff(s).
: other: Judgment entered in favor of defendant
and against plaintiff.
This action was (check one):
9 tried by a jury with Judge
jury has rendered a verdict.

presiding, and the

9 tried by Judge
without a jury and the above
decision was reached.
: decided by Judge Matthew F. Kennelly on a motion.

App. 31
Date: 8/23/2019
Thomas G. Bruton, Clerk of Court
Pamela J. Geringer, Deputy Clerk

App. 32

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois –
CM/ECF LIVE, Ver 6.3.2
Eastern Division
Case No.: 1:16-cv-07915
[Filed May 23, 2020]
_______________________________________
Jason Gonzales
)
Plaintiff,
)
)
v.
)
)
Michael J. Madigan, et al.
)
Defendant. )
_______________________________________)
Honorable Matthew F. Kennelly
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on Saturday,
May 23, 2020:
MINUTE entry before the Honorable Matthew F.
Kennelly: The Court denies plaintiff’s motion for
reconsideration [302]. Plaintiff’s motion consists of
rearguing points the Court already considered and
rejected, disagreement with the Court#039;s resolution
of disputed legal issues, and points not made during

App. 33
the summary judgment briefing. None of these is a
proper basis for reconsideration. (mk)
ATTENTION: This notice is being sent pursuant to
Rule 77(d) of the Federal Rules of Civil Procedure or
Rule 49(c) of the Federal Rules of Criminal Procedure.
It was generated by CM/ECF, the automated docketing
system used to maintain the civil and criminal dockets
of this District. If a minute order or other document is
enclosed, please refer to it for additional information.
For scheduled events, motion practices, recent opinions
and other information, visit our web site at
www.ilnd.uscourts.gov.

App. 34

APPENDIX E
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
No. 20-1874
[Filed April 6, 2021]
______________________________
JASON GONZALES,
)
Plaintiff-Appellant,
)
)
v.
)
)
MICHAEL J. MADIGAN, et al.,
)
Defendants-Appellees.
)
______________________________)
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
Appeal from the United States
District Court for the Northern
District of Illinois, Eastern
Division.
No. 16 C 7915
Matthew F. Kennelly, Judge.

App. 35
Order
Plaintiff-Appellant filed a petition for rehearing and
rehearing en banc on March 22, 2021. No judge in
regular active service has requested a vote on the
petition for rehearing en banc, and all of the judges on
the panel have voted to deny rehearing. The petition
for rehearing is therefore DENIED.

